TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                    Observations About Annual Dollar Limits
                   for American Recovery and Reinvestment
                              Act of 2009 Bonds



                                         January 8, 2010

                              Reference Number: 2010-11-016




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                    HIGHLIGHTS


WHY TIGTA DID THE AUDIT                             The Tax Exempt Bonds office believes it
                                                    has considered the recommendations of
The American Recovery and Reinvestment
                                                    the prior TIGTA audit and has taken
Act of 2009 (Recovery Act) contains both
                                                    steps to ensure it is adequately
spending and tax provisions of $787 billion
                                                    monitoring the volumes of Recovery Act
over 10 years. The Recovery Act authorizes
                                                    bonds. TIGTA did not conduct any
the issuance of additional tax-exempt bonds
                                                    additional audit work to evaluate the
and greatly expands the market for tax credit
                                                    differences between how the IRS
bonds. The overall objective of this review
                                                    processes and monitors Recovery Act
was to report observations identified during
                                                    bonds versus private activity bonds or
the Review of Private Activity Tax-Exempt
                                                    whether the new controls are effective.
Bond Volume Cap Compliance that relate to
                                                    Due to the large amount of money
the Recovery Act.
                                                    involved, it will be important that the
IMPACT ON TAXPAYERS                                 Tax Exempt Bonds office monitor
                                                    Recovery Act bonds to ensure these
The Recovery Act authorizes State and local
                                                    bonds do not exceed legislative limits.
governments to issue more than $45 billion in
new bonds, some with tax incentives to bond         RECOMMENDATIONS AND
issuers or bondholders, and some with volume        IRS RESPONSE
caps on the dollar amounts that can be issued.
                                                    There are no recommendations in this
The Tax Exempt Bonds office will need to be
                                                    report. Tax Exempt and Government
vigilant to ensure that Recovery Act bonds are
                                                    Entities Division management reviewed the
not issued in excess of annual limits. If annual
                                                    report before it was issued and
limits are exceeded, the Federal Government
                                                    offered clarifying comments and
risks losing future tax revenue because excess
                                                    suggestions, which have been taken into
Recovery Act bonds may not be eligible for tax
                                                    account.
credits or may be taxable. Due to the
challenging economic times the country is
facing, it is even more important that the
Internal Revenue Service (IRS) remain vigilant
in ensuring that dollar limitations for bonds are
not exceeded as the Federal Government works
to stimulate the economy.
WHAT TIGTA FOUND
In a previous audit, TIGTA determined that
the IRS needed to improve its monitoring of
tax-exempt private activity bonds to ensure
these bonds are not issued in excess of
annual dollar limits, known as volume caps.
The Recovery Act also includes volume
caps for new and expanded tax credit and
tax-exempt bonds.
                                                DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                January 8, 2010


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION


 FROM:                     (for) Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Observations About Annual Dollar Limits for
                                 American Recovery and Reinvestment Act of 2009 Bonds
                                 (Audit # 200910135)

 This report presents the observations identified during the Review of Private Activity
 Tax-Exempt Bond Volume Cap Compliance that relate to the American Recovery and
 Reinvestment Act of 2009 (Recovery Act). 1 This report is consistent with Office of
 Management and Budget guidance to identify high-risk programs and create quicker turnaround
 reporting. This review was conducted as part of the Treasury Inspector General for Tax
 Administration Fiscal Year 2010 Annual Audit Plan related to the major management challenge
 of Tax Compliance Initiatives.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities
 of Internal Revenue Service (IRS) programs. This audit was conducted using Recovery Act
 funds.
 We did not make any recommendations in this report. Tax Exempt and Government Entities
 Division management reviewed the report and offered clarifying comments and suggestions,
 which we have taken into account.


 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                Observations About Annual Dollar Limits for
                 American Recovery and Reinvestment Act
                              of 2009 Bonds


Copies of this report are also being sent to the IRS managers affected by the report. Please
contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant Inspector
General for Audit (Management Services and Exempt Organizations), at (202) 622-8500.




                                                                                               2
                         Observations About Annual Dollar Limits for
                          American Recovery and Reinvestment Act
                                       of 2009 Bonds




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Future Tax Revenues May Be at Risk if the Tax Exempt Bonds
          Office Does Not Closely Monitor Recovery Act Volume Caps...................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
      Observations About Annual Dollar Limits for
       American Recovery and Reinvestment Act
                    of 2009 Bonds




                    Abbreviations

IRS           Internal Revenue Service
                      Observations About Annual Dollar Limits for
                       American Recovery and Reinvestment Act
                                    of 2009 Bonds




                                             Background

The American Recovery and Reinvestment Act of 2009 1 (Recovery Act) was enacted on
February 17, 2009. The Act contains both spending and tax provisions of $787 billion over
10 years. The Federal Government estimates the Act will result in the creation or saving of
3.5 million jobs by the end of September 2010.
The Recovery Act includes multiple bond provisions that are intended to promote the stated
goals of stimulating employment, improving infrastructure, and providing fiscal relief to State
and local governments. The Recovery Act authorizes the issuance of additional tax-exempt
bonds and greatly expands the market for tax credit bonds.
Tax-exempt bonds are bonds that are issued by State or local governments, where the interest
paid by the bond issuer to bondholders is not taxable. Tax credit bonds differ from traditional
tax-exempt bonds. If bonds are issued as tax credit bonds, bondholders claim as taxable income
a Federal tax credit equal to a percentage of the bond’s face value for a limited number of years.
In Calendar Year 2006, State and local governments issued $428.3 billion in tax-exempt bonds. 2
Prior to the Recovery Act, tax credit bonds were a small part of the bond market. The Recovery
Act increased tax-exempt bond financing by $17 billion by creating Recovery Zone Facility
Bonds ($15 billion) and Tribal Economic Development Bonds ($2 billion). 3 As shown in
Figure 1, tax credit bonds were significantly increased by at least $28.4 billion. However, this
figure could be much higher because one type of tax credit bond, known as Build America
Bonds, was not given a limit.




1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  This information was published by the Internal Revenue Service’s Statistics of Income Division and was the latest
year available. Since the accuracy of this Internal Revenue Service-provided statistic did not affect the
accomplishment of our audit, we did not verify its accuracy.
3
  Tribal Economic Development Bonds can also be issued as a direct payment bond.
                                                                                                            Page 1
                    Observations About Annual Dollar Limits for
                     American Recovery and Reinvestment Act
                                  of 2009 Bonds


             Figure 1: Key Tax Credit Bonds and Increases in the Amounts
                                 That Can Be Issued
                                                                     Additional Bonds
                                                                    That Can Be Issued
                                                                       Based on the
                               Bond Name                              Recovery Act
                 Qualified School Construction Bonds                    $22 billion
                 Qualified Energy Conservation Bonds                    $2.4 billion
                 Qualified Zone Academy Bonds                           $2.4 billion
                 New Clean Renewable Energy Bonds                       $1.6 billion
                 Build America Bonds                                     No limit
                 Total increase in tax credit bonds                   $28.4 billion 4
                Source: Treasury Inspector General for Tax Administration Analysis of the
                Recovery Act.

Prior to the passage of the Recovery Act, we initiated an audit 5 concerning how the Internal
Revenue Service (IRS) was ensuring certain tax-exempt bonds were not issued in excess of
annual dollar limitations. Any bonds issued above the maximum yearly dollar limit would be
taxable. As this audit came to its conclusion, we noted that our findings may also relate to
Recovery Act bonds. Consistent with Office of Management and Budget guidance 6 to identify
high-risk programs and create quicker turnaround reporting, this report provides observations
concerning bond provisions that were uncovered in this recent audit that may have implications
for the IRS in ensuring Recovery Act bonds are issued in compliance with the legislation.
This review was performed at the Tax Exempt and Government Entities Division Tax Exempt
Bonds Headquarters office in Washington, D.C., during the period September through
November 2009. Since this report includes observations based only on a prior report, this audit
was not conducted in accordance with generally accepted government auditing standards and
was significantly reduced in scope. While additional audit work was not performed, this report
includes statements made by Tax Exempt and Government Entities Division management as to
the applicability of our previous findings to Recovery Act bonds. Under the Recovery Act,
inspectors general are expected to be proactive and focus on prevention. We believe this report
is responsive to this intent. Detailed information on our audit objective, scope, and methodology
is presented in Appendix I. Major contributors to the report are listed in Appendix II.



4
  The total increase listed in Figure 2 does not include Build America Bonds since the Recovery Act does not
provide a dollar limitation for these bonds.
5
  Future Tax Revenues Are at Risk Because Certain Tax-Exempt Bonds May Exceed Annual Dollar Limits Without
Detection (Reference Number 2009-10-097, dated September 14, 2009).
6
  Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009 (Memorandum
Number M-09-15, dated April 3, 2009).
                                                                                                      Page 2
                      Observations About Annual Dollar Limits for
                       American Recovery and Reinvestment Act
                                    of 2009 Bonds




                                      Results of Review

In a previous audit, we determined that the IRS needed to improve its monitoring of tax-exempt
private activity bonds to ensure these bonds are not issued in excess of annual dollar limits,
known as volume caps. The Recovery Act includes authorization for the issuance of a large
amount of new bonds, but also includes annual volume cap limits. Tax Exempt and Government
Entities Division management believes they can better monitor Recovery Act bonds in
comparison to private activity bonds. Due to the large amount of money involved, it will be
important that the Tax Exempt Bonds office monitor Recovery Act bonds to ensure these bonds
do not exceed legislative limits.

Future Tax Revenues May Be at Risk if the Tax Exempt Bonds Office
Does Not Closely Monitor Recovery Act Volume Caps
The Tax Exempt Bonds office will need to be vigilant to ensure that Recovery Act bonds are not
issued in excess of annual limits. If annual limits are exceeded, the Federal Government risks
losing future tax revenue because excess Recovery Act bonds may not be eligible for tax credits
or may be taxable. We did not perform testing of Recovery Act bonds, but a recent Treasury
Inspector General for Tax Administration audit identified the following for private activity
bonds, which also have volume cap limits:
•      The Tax Exempt Bonds office compliance program for private activity bonds is based on
       determining whether individual bond issues are compliant with applicable regulations and
       not on determining whether aggregate bond issues exceeded yearly volume cap dollar limits.
•      The IRS did not regularly receive all the information it needed to verify volume cap
       compliance.
•      Private activity bond data was not always accurately entered into IRS computer systems.
       We identified more than $11 billion in transcription errors between amounts submitted on
       bond returns 7 and bond carryforward returns 8 and amounts entered into IRS computer
       systems.
As a result of our audit, we recommended the IRS develop and implement processes to identify
and address bonds that exceed annual dollar limitations, ensure bond documentation is received,
and identify and implement a methodology to ensure transcription errors for bond documentation
are detected. In responding to our report, the IRS stated that by January 2011, it plans to identify

7
    Information Return for Tax-Exempt Private Activity Bond Issues (Form 8038).
8
    Carryforward Election of Unused Private Activity Bond Volume Cap (Form 8328).
                                                                                              Page 3
                   Observations About Annual Dollar Limits for
                    American Recovery and Reinvestment Act
                                 of 2009 Bonds


approaches to identify and address compliance with tax-exempt private activity bond volume
caps, improve guidance for processing bond information returns, and identify errors for
previously processed bond information returns.
The Recovery Act also includes volume caps (annual dollar limits) for new and expanded tax
credit and tax-exempt bonds. In addition, any unused volume cap can be carried forward to
future years. Figure 2 presents the Recovery Act bonds that have provisions for volume caps and
carryforwards.
                   Figure 2: Bond Provisions Within the Recovery Act
Recovery
   Act                                                                               Includes       Includes
 Section                                                                            Volume Cap    Carryforward
Number     Bond Name       Bond Type              Bond Description                  Provisions?    Provisions?
  1111     New Clean       Tax Credit   These bonds are used to finance                 Yes           No
           Renewable                    renewable energy projects involving
           Energy Bonds                 wind, tidal energy, ocean energy, etc.
  1112     Qualified       Tax Credit   These bonds are used to finance energy          Yes           No
           Energy                       efficient capital expenditures in public
           Conservation                 buildings, mass commuting facilities that
           Bonds                        reduce energy consumption, etc.
  1401     Recovery          Direct     These bonds are used to finance projects        Yes           No
           Zone             Payment     in a recovery zone with significant
           Economic                     poverty, unemployment, general distress
           Development                  or home foreclosures and designated as
           Bonds                        an empowerment zone or renewal
                                        community.
  1401     Recovery        Tax-Exempt   These bonds are used to finance projects        Yes           No
           Zone Facility                in a recovery zone with significant
           Bonds                        poverty, unemployment, general distress
                                        or home foreclosures and designated as
                                        an empowerment zone or renewal
                                        community.
  1402     Tribal          Tax-Exempt   These bonds are used to finance projects        Yes           No
           Economic         or Direct   for economic development, but can not
           Development      Payment     be for gaming facilities or involve work
           Bonds                        outside of an Indian reservation.
  1521     Qualified       Tax Credit   These bonds can be used for new school          Yes           Yes
           School                       construction.
           Construction
           Bonds
  1522     Qualified       Tax Credit   These bonds can be used for repairing           Yes           Yes
           Zone                         public schools, development of course
           Academy                      materials, etc.
           Bonds




                                                                                                      Page 4
                    Observations About Annual Dollar Limits for
                     American Recovery and Reinvestment Act
                                  of 2009 Bonds


Recovery
   Act                                                                                  Includes       Includes
 Section                                                                               Volume Cap    Carryforward
Number       Bond Name       Bond Type                 Bond Description                Provisions?    Provisions?
    1531     Build America   Tax Credit or   Build America Bonds (tax credit) can be       No              Yes
             Bonds              Direct       issued to finance any governmental
                              Payment 9      purpose for which tax-exempt
                                             governmental bonds (excluding private
                                             activity bonds) can be issued. The
                                             eligible uses of proceeds and types of
                                             financing for Build America Bonds
                                             (direct payment) are more limited than
                                             for Build America Bonds (tax credit).
Source: Treasury Inspector General for Tax Administration analysis of the Recovery Act.

In response to a draft version of our report, Tax Exempt and Government Entities Division
management stated that they can better control and monitor volume cap compliance for
Recovery Act bonds in comparison to private activity bonds, for several reasons. For example:
•    Certain Recovery Act bonds require the issuer to request an allocation of a portion of the
     volume cap. In the request, the issuer must supply details about the proposed bond issuance.
     In contrast, the volume cap for private activity bonds is allocated by individual States and the
     IRS is not initially aware of any allocations that are made.
•    Due to the need for transparency regarding Recovery Act bonds, the Tax Exempt Bonds
     office has instituted new controls to research and report on the amount of Recovery Act
     bonds that have been issued based on information returns that are filed with the IRS. This
     control is not in place for private activity bonds.
The Tax Exempt Bonds office believes it has considered the recommendations of the prior
Treasury Inspector General for Tax Administration audit and has taken steps to ensure it is
adequately monitoring the volumes of Recovery Act bonds. This will be key due to the more
than $45 billion 10 in new bonds included in the Recovery Act.



9
  Direct Payment Build America Bonds provide a Federal subsidy through a refundable tax credit paid to State or
local governmental issuers by the Department of the Treasury and the IRS in an amount equal to 35 percent of the
total coupon interest payable to investors in these taxable bonds.
10
   This amount includes increases to tax credit ($28.4 billion) and tax-exempt bonds ($17 billion), but does not
include Build America Bonds since the Recovery Act does not provide a dollar limitation for these bonds.




                                                                                                           Page 5
                 Observations About Annual Dollar Limits for
                  American Recovery and Reinvestment Act
                               of 2009 Bonds


We did not conduct any additional audit work to evaluate the differences between how the IRS
processes and monitors Recovery Act bonds versus private activity bonds or whether the new
controls are effective. Due to the challenging economic times the country is facing, it is even
more important today that the IRS remain vigilant in ensuring that bond dollar limitations are not
exceeded as the Federal Government works to stimulate the economy.




                                                                                           Page 6
                      Observations About Annual Dollar Limits for
                       American Recovery and Reinvestment Act
                                    of 2009 Bonds


                                                                                  Appendix I

           Detailed Objective, Scope, and Methodology

The overall objective was to report observations identified during the Review of Private Activity
Tax-Exempt Bond Volume Cap Compliance that relate to the Recovery Act. To accomplish the
objective, we:
I.        Reviewed the Recovery Act to identify bond-related provisions.
II.       Reviewed the Treasury Inspector General for Tax Administration audit report Future Tax
          Revenues Are at Risk Because Certain Tax-Exempt Bonds May Exceed Annual Dollar
          Limits Without Detection 1 to identify process weaknesses that would also relate to
          Recovery Act bonds.




1
    Reference Number 2009-10-097, dated September 14, 2009.
                                                                                           Page 7
                Observations About Annual Dollar Limits for
                 American Recovery and Reinvestment Act
                              of 2009 Bonds


                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Andrew J. Burns, Acting Audit Manager
Marjorie A. Stephenson, Senior Auditor
Michael A. McGovern, Auditor




                                                                                   Page 8
                Observations About Annual Dollar Limits for
                 American Recovery and Reinvestment Act
                              of 2009 Bonds


                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Tax Exempt Bonds, Tax Exempt and Government Entities Division SE:T:GE:TEB
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:C




                                                                                    Page 9
